          Smithsonian Institution

          Office of the Inspector General




  Date    March 4, 2013

    To    Albert Horvath, Under Secretary for Finance and Administration and Chief
           Financial Officer
          Deron Burba, Chief Information Officer

    cc	   Patricia Bartlett, Chief of Staff, Office of the Secretary 

          Judith Leonard, General Counsel

          Rebecca Hutchings, Acting Director of IT Security


  From    Scott S. Dahl, Inspector General

Subject   Management Advisory Regarding Portable Computer Encryption (M-13-01)


          INTRODUCTION

          In our fiscal year 2010 FISMA review of the Smithsonian’s information
          security program (Smithsonian Institution Information Security Program,
          March 15, 2011, Report No. A-10-01), we found that the Smithsonian was
          not enforcing its policy requiring that all mobile devices that may be used to
          store sensitive information be encrypted. We recommended that the
          Smithsonian implement controls to ensure that policy is enforced.

          In a memorandum dated September 30, 2012, management informed us
          that it implemented the recommendation and requested that we close it. To
          determine if the actions management took were effective, we examined a
          sample of portable computers in units that routinely handle sensitive
          information. We found that most of the portable computers we tested were
          not encrypted. Management needs to ensure that portable computers that
          may be used to store sensitive information are properly encrypted. In
          addition, management needs to ensure that users are aware if a laptop is
          unencrypted and that it should not be used to store sensitive information.
          Therefore, we are keeping the recommendation open and making three more
          recommendations to assist management in implementing the original one.

          BACKGROUND

          The Office of Management and Budget issued Memorandum M-06-16 in June
          2006 requiring all executive departments and agencies to encrypt all data on
          mobile computers/devices which carry agency data, unless the data is
          determined to be non-sensitive, in writing, by the Deputy Secretary or
          designee. The Smithsonian is not required to follow OMB memorandums but
          has issued policies requiring devices containing sensitive data be encrypted.
Smithsonian Directive 931, Use of Computers, Telecommunication Devices
and Networks, dated September 18, 2009, requires users to ensure that
sensitive data stored on laptops or other portable hardware is encrypted. The
OCIO technical note IT-930-TN28 establishes the procedures and
responsibilities for implementing encryption. According to the technical note,
the computing device user is responsible for determining that the device may
be used to store sensitive information. The computing device user contacts
the unit’s IT staff, who is responsible for licensing and installing encryption
software. The technical note establishes that whole disk encryption must be
used if sensitive data is stored on a laptop computer.

In response to the original audit recommendation, management took the
following measures:

The Office of the Chief Information Officer (OCIO) provided information for
Smithsonian units to directly procure a range of approved encrypted devices
and encryption software. The CIO distributed a Smithsonian-wide email to
remind staff of their role and responsibilities for protecting sensitive
Smithsonian information using these approved technologies. In addition,
OCIO installs encryption on portable or desktop computers on request.

RESULTS OF OIG REVIEW

In December 2012 and January 2013, we tested a sample of laptops in four
units that routinely handle sensitive information and found that many laptop
computers were not encrypted. We found that 11 of 15 laptops tested did not
have whole disk encryption installed. Of the four units visited, three units did
not have encryption installed on any of the laptop computers tested. Several
of the computers tested were used by senior-level management. Several
staff indicated that they assumed the laptop computers were configured
according to Smithsonian requirements and were unaware that encryption
was not installed.

If a laptop computer that is not secured with encryption is lost or stolen, the
information contained on the laptop can be easily obtained without
knowledge of user passwords. If the information on the laptop computer is
securely encrypted, it would be unlikely or impractical for anyone to retrieve
it without the decryption key.

CONCLUSION AND RECOMMENDATION

The controls in place are not adequate to ensure that laptop computers that
may contain sensitive information are secured with an appropriate encryption
technology. Staff were not knowledgeable about how the equipment they use
was configured and expected it to be configured appropriately for its
intended use. Therefore, the original recommendation will remain open and
we further recommend that the USFA/CFO, in coordination with the other
Under Secretaries, direct Unit IT staff to:


                                       2

   1. Determine which laptop computers in their inventory may be used to
      store sensitive data and, with assistance from OCIO, configure those
      computers with whole drive encryption.

   2. Identify all laptop computers that will not be configured with
      encryption and clearly indicate to users with a prominent label that
      those computers must not be used to store sensitive information.

In addition, we recommend that the Chief Information Officer:

   3. Revise IT-930-TN28 to assign responsibility to staff with the
      knowledge and skills to ensure laptop computers are configured with
      appropriate encryption technology.

Management has concurred with the recommendations and developed a plan
to implement them. We believe that the proposed actions, when
implemented, will meet the intent of these recommendations. We have
included management’s full response in Appendix A.

We note that the original recommendation is to enforce the existing
Smithsonian policy, which requires all mobile devices that may be used to
store sensitive information be encrypted. This includes devices such as
portable storage, tablets, and smart phones. When requesting that we close
the original recommendation, please address how the Smithsonian is
implementing its policy with respect to other types of mobile devices.




                                      3

APPENDIX A. MANAGEMENT’S RESPONSE





                                4

APPENDIX A. MANAGEMENT’S RESPONSE (CONTINUED)





                                5

